                           OFFICE OF THE INSPECTOR GENERAL
                           CORPORATION FOR NATIONAL AND
                                 COMMUNITY SERVICE




                              PRE-AUDIT SURVEY OF THE
                           NEW HAMPSHIRE COMMISSION ON
                          NATIONAL AND COMMUNITY SERVICE

                                 OIG Audit Report Number 00- 19
                                       October 22, 1999




                                             Prepared by:

                                            KPMG LLP
                                        2001 M Street, N.W.
                                       Washington, D.C. 20036

                                 Under CNS OIG MOU # 98-046-5003
                                    With the Department of Labor
                                    DOL Contract # J-9-G-8-0022
                                         Task # B9G8V103




This report was issued to Corporation management on February 9, 2000. Under the laws and regulations
governing audit follow up, the Corporation must make final management decisions on the report's findings
and recommendations no later than August 7, 2000, and complete its corrective actions by February 9,
2001. Consequently, the reported findings do not necessarily represent the final resolution of the issues
presented.
                                 Office of Inspector General                             FOR NATIONAL
                       Corporation for National and Community Service                    RSERVICE
                                Pre-Audit Survey of the
               New Hampshire Commission on National and Community Service
                            OIG Audit Report Number 00-19

Introduction

The Corporation for National and Community Service, pursuant to the authority of the National and
Community Service Act, awards grants and cooperative agreements to state commissions, nonprofit
entities, tribes and territories to assist in the creation of full and part time national and community
service programs. Currently, in accordance with the requirements of the Act, the Corporation awards
approximately two-thirds of its AmeriCorps StateINational funds to state commissions. The state
commissions in turn fund, and are responsible for the oversight of, subgrantees who execute the
programs. Through these subgrantees, ArneriCorps Members perform service to meet educational,
human, environmental, and public safety needs throughout the nation.

Thus, state commissions play an important role in the oversight of AmeriCorps programs and
expenditures. The Corporation has indicated that it intends to give them greater responsibility.
However, the Corporation lacks a management information system that maintains comprehensive
information on its grants including those to state commissions and subgrantees. Moreover, although
the Corporation began state commission administrative reviews in 1999, the Corporation,
historically, has not carried out a comprehensive, risk-based program for grantee financial and
programmatic oversight and monitoring. It is also unlikely that AmeriCorps programs are subject
to compliance testing as part of state-wide audits under the Single Audit Act due to their size relative
to other state programs.

Therefore, CNS OIG has initiated a series of pre-audit surveys intended to provide basic information
on the state commissions' operations and funding. The surveys are designed to provide a
preliminary assessment of the commissions' pre-award and grant selection procedures, fiscal
administration, monitoring of subgrantees (including AmeriCorps Member activities and service
hour reporting), and the use of training and technical assistance funds. For each survey, we will
issue a report to the state commission and to the Corporation communicating the results and making
recommendations for improvement, as appropriate.

We engaged KPMG LLP to perform the pre-audit survey of the New Hampshire Commission on
National and Community Sewice. KPMG's report, which follows, includes recommendations for
improvements by the Commission, oversight by the Corporation for National Service, and a full-
scope financial audit of the Commission by OIG. We have reviewed the report and work papers
supporting its conclusions, and we agree with the findings and recommendations presented.
Responses to the report by the New Hampshire Commission and the Corporation for National
Service are included as appendices C and D, respectively.


                                                                                     Inspector General
                                                                                     1201 New York Avenue, NW
                                                                                     Washington, 1)C 20525
                          Pre-Audit Survey of the New Hampshire Commission on
                                     National and Community Service
                                            Table of Contents



RESULTS IN BRIEF ......................................................................................................................   1

BACKGROUND ...................................................................................................................... 2

OVERVIEW OF THE NEW HAMPSHIRE COMMISSION ......................................................... 3

OBJECTIVES. SCOPE AND METHODOLOGY ......................................................................... 3

FINLINGS AND RECOMMENDATIONS ...................................................................................5

APPENDIX A. COMMISSION FUNDING: 1996-97 THROUGH 1998-99 ............................. A . 1

APPENDIX B. DETAILED ENGAGEMENT OBJECTIVES AND
   METHODOLOGY ...............................................................................................................
                                                                                                                         B .1

APPENDIX C. NEW HAMPSHIRE COMMISSION ON NATIONAL AND COMMUNITY
   SERVICE RESPONSE ..........................................................................................................
                                                                                                                         C. 1

APPENDIX D. CORPORATION RESPONSE ...........................................................................
                                                                                                          D.1
              2001 M Street, N.W.
              Washington, D.C. 20036




October 22, 1999



Inspector General
Corporation for National and Community Service:

At your request, KPMG performed a preaudit survey of the New Hampshire Commission on
National and Community Service. The primary purpose of this survey was to provide a
preliminary assessment of:

   the adequacy of the pre-award selection process;
   the fiscal procedures at the Commission;
   the effectiveness of monitoring of its AmeriCorps State subgrantees, including AmeriCorps
   Member activities and service hours; and
   the controls over the provision of technical assistance.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Commission.

Results in Brief

Based on the results of the limited procedures performed, we have made the following
preliminary assessments regarding the Commission's systems for administering its AmeriCorps
grants:

    The Commission administers an open, competitive process to select national service
    subgrantees. However, we identified areas for improvement related to (1) the lack of a
    formal method to ensure consistent communication of renewal applicants' prior evaluations
    to selection officials and (2) the lack of assessment of applicants' financial systems during
    the selection process.

    The Commission has developed and implemented procedures that are intended to provide
    reasonable assurance that AmeriCorps grant funds are properly administered. However, we
    were unable to verify the timeliness of receipt of Financial Status Reports (FSRs), invoices
    and progress reports because these documents are not routinely date-stamped upon receipt.
    In addition, no evidence of FSR review and matching requirement recalculation existed until
    the third quarter of the 1998-99 program year.




1111            KPMG LLP KPMG LLP a U S l m ~ t e dIhabMy paifnershlp s
                a member of KPMG Interrralanal a Swss assmatron
   The Commission does not have adequate controls in place to evaluate and monitor
   subgrantees. For example, the Commission's on-site monitoring procedures do not include
   (1) review of Office of Management and Budget (OMB) Circular A-133 reports or other
   audit reports from subgrantees or (2) review of subgrantees' financial systems, AmeriCorps
   Member timesheets, and expense documentation. In addition, the monitoring tool does not
   contain specific sections related to review for prohibited activities.

   The Commission has adequate controls in place to provide reasonable assurance that training
   and technical assistance is made available and provided to subgrantees.

The section below entitled Findings and Recommendations describes the weaknesses noted
above in further detail and addresses additional issues noted during the survey.

Based on our preliminary assessments, we recommend the performance of a full scope audit at
the Commission for program years 1995-96, 1996-97 and 1998-99. We recommend a limited
scope audit for program year 1997-98, since the Commission was tested as a major program
under an OMB Circular A-133 audit for the 1997-98 period, with no material findings or
questioned costs noted.

Additionally, we recommend that the Corporation follow up with the Commission to determine
that appropriate corrective actions are put into place to address the conditions reported herein,
and that the Corporation consider these conditions in its oversight and monitoring of the New
Hampshire Commission on National and Community Service.

Background

The National and Community Service Trust Act of 1993, P.L. 103-82, which amended the
National and Community Service Act of 1990, established the Corporation for National and
Community Service.

The Corporation, pursuant to the authority of the Act, awards grants and cooperative agreements
to State Commissions, nonprofit entities and tribes and territories to assist in the creation of full
and part time national and community service programs. Through these grantees, AmeriCorps
Members perform service to meet the educational, human, environmental, and public safety
needs throughout the nation, especially addressing those needs related to poverty. In return for
this service, eligible Members may receive a living allowance and post service educational
benefits.

Currently, the Corporation awards approximately two-thirds of its AmeriCorps State/National
funds to State Commissions. State Commissions are required to include 15 to 25 voting
members. Each Commission has a responsibility to develop and communicate a vision and ethic
of service throughout its State.

The Commissions provide AmeriCorps funding to approved applicants for service programs
within their states and are responsible for monitoring these subgrantees' compliance with grant
requirements. The Commissions are also responsible for providing training and technical
assistance to AmeriCorps State and National Direct programs and to the broader network of
service programs in the state. The Commissions are prohibited from directly operating national
service programs.
The Corporation's regulations describe standards for financial management systems that must be
maintained by State Commissions. The standards require, in part, that the State Commissions
maintain internal controls that provide for accurate, current, and complete disclosure of the
financial and programmatic results of financially assisted activities, and provide effective control
and accountability for all grant and subgrant cash, real and personal property, and other assets.

Overview of the New Hampshire Commission

The New Hampshire Commission on National and Community Service, located in Concord, New
Hampshire, has received AmeriCorps grant funds from the Corporation for National and
Community Service since program year 1995-96. It operates as part of a not-for-profit
organization, the New Hampshire Job Training Council. The Commission currently has four
full-time staff consisting of an Executive Director, two Program Officers, and one Administrative
Assistant.

As part of the New Hampshire Job Training Council, the Commission is annually subject to
OMB Circular A-133 audits. The AmeriCorps grant, the smaller of the two federal grants
received annually by the entity, was tested as a major program for the fiscal year ending June 30,
1998. For that fiscal year, the auditors identified no material noncompliance with grant
requirements and no material weaknesses in internal control over compliance with grant
requirements.

The Commission provided us with the following information for the last three program years:

                                                                         Number of Sub-
                                                                        grantees Subject to
                              Total Corporation        Number of           A-133 Audit
        Program Year               FundlnR             Subgrantees        Requirements*




*   Determination is based solely on dollar value of federal awards passed through the
    Commission for the program year. Remaining subgrantees could be subject to an OMB
    Circular A-133 audit if they received additional federal grant funds from other sources.
    Because the Commission does not routinely obtain and review such audit reports as reported
    on page 9, we were unable to verify that applicable subgrantees complied with this audit
    requirement.

Appendix A contains more detailed information on funding received from the Corporation during
program years 1996-97 through 1998-99.

Objectives, Scope, and Methodology

We were engaged by the Office of the Inspector General, Corporation for National and
Community Service, to provide a preliminary assessment of the systems and procedures in place
at the Commission for administering its AmeriCorps grants and for monitoring the fiscal activity
of subgrantees. The primary purpose of this pre-audit survey was to provide a preliminary
assessment of:

    the adequacy of the pre-award selection process;
    the fiscal procedures at the Commission;
    the effectiveness of monitoring of its Amencorps State subgrantees, including AmeriCorps
    Member activities and service hours; and
    the controls over the provision of technical assistance.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Commission.

Our survey included the following procedures:

    reviewing applicable laws, regulations, grant provisions, the Corporation's State Commission
    Reference Manual, and other information to gain an understanding of legal, statutory and
    programmatic requirements;

    reviewing OMB Circular A-133 reports and current program year grant agreements for the
    Commission;

    obtaining information from Commission management to complete flowcharts documenting
    the hierarchy of AmeriCorps grant funding for program years 1996-97, 1997-98 and 1998-
    99; and

    performing the procedures detailed in Appendix B over the Commission's internal controls,
    selection of subgrantees, administration of grant funds, evaluation and monitoring of grants,
    and the technical assistance process.

As part of the procedures performed, we documented and tested internal controls in place at the
Commission using inquiries, observations, and examination of a limited sample of source
documents. Finally, we summarized the results of our work to develop the findings and
recommendations presented in this report. We discussed all findings with Commission
management during an exit conference on October 22, 1999.

Our procedures were performed in accordance with Government Auditing Standards issued by
the Comptroller General of the United States. We were not engaged to, and did not, perform an
audit of any financial statements, and the procedures described above were not sufficient to
express an opinion on the controls at the Commission, or on its compliance with applicable laws,
regulations, contracts and grants. Accordingly, we do not express an opinion on any such
financial statements, or on the Commission's controls or compliance. Had we performed
additional procedures, other matters might have come to our attention that would have been
reported to you.

We provided a draft of this report to the Commission and the Corporation. The Commission's
and the Corporation's responses to our findings and recommendations are included as Appendix
C and Appendix D, respectively. In order to address certain of the concerns expressed in the
Commission's response, we have clarified the wording of the respective Findings and
Recommendations which begin on the following page.
Findings and Recommendations

Selecting Subgrantees

According to A Reference Manual for Commission Executive Directors and Members, section
3.2, "Commissions are expected to develop a fair and impartial process for reviewing and
selecting applicants for potential funding."

The Commission administers an open, competitive process to select national service subgrantees.
Commission personnel discuss conflict of interest issues with selection officials before the
commencement of the selection process. Selection officials receive an instruction package and
use a standard form to evaluate each applicant. However, we identified the following areas for
improvement within the selection process.

       Consideration of Prior Evaluations by Selection Officials in the Renewal Application
       Process

A panel of three Commission Board members and one member of the community evaluate
applicants and make approval/rejection decisions. Commission personnel provide information
to these selection officials for each applicant.

If the Commission has funded an applicant in a previous year, Commission personnel verbally
communicate key aspects of program evaluations to the selection officials during a pre-selection
meeting. However, the content of this verbal communication can vary significantly from
applicant to applicant because Commission subgrantee selection procedures do not identify what
information should be communicated to selection officials for each previously funded applicant.

As a result, Commission personnel may provide certain information to the selection officials
about one previously funded applicant, but omit that information in their communications about
other previously funded applicants. If similar information is not consistently communicated
about each previously funded applicant, then the fairness of the selection process may be
impaired and Commission personnel may unintentionally bias the selection officials.

        Assessment of Applicants' Financial Systems during the Selection Process

Selection officials do not consider the adequacy of the applicants' financial systems during the
Commission's subgrantee selection process. The application form provided by the Corporation
does not specifically address the applicant's financial systems. Commission selection procedures
do not require Commission personnel to request from the applicants additional information
related to their financial systems. As a result, grant funds may be provided to an organization
that does not have financial systems in place to properly account for those funds or to ensure
compliance with related grant requirements.

According to A Reference Manual for Commission Executive Directors and Members, section
4.2, Commissions are responsible for maintaining "appropriate financial management systems to
disburse funds and track Commission and program expenditures according to legal and grant
requirements." In order to meet this responsibility, the Commission must be able to ensure that
subgrantees have systems in place to accurately track expenditures, since this information forms
the basis of a majority of Commission expenditure reporting.
        Lack of Formal Conjlict of Interest Statements

According to A Reference Manual for Commission Executive Directors and Members, section
3.6, "State Commissions should strive to achieve the greatest objectivity and impartiality
possible in the review and selection of grantees in the state.. .Any time a voting Commission
member is not, or does not appear to be, for any reason, impartial to a program that is applying to
the Commission for funding, the member has a conflict of interest." One way to help ensure this
objectivity is to require selection officials to annually certify in writing that they have no
conflicts of interest.

Although Commission staff discuss conflict of interest issues with selection officials and
distribute relevant guidance to them, Commission policies and procedures do not require these
officials to annually sign conflict of interest statements certifying that they have no conflicts. If
selection officials have conflicts of interest but do not report them, the fairness of the selection
process may be impaired.

        Missing Documentation Related to Application Rejections

The Commission was unable to provide us with requested documentation related to application
rejections because all documentation supporting application rejection decisions and related
communications to applicants were stored on a computer that experienced a hard drive failure.
As a result, if a rejected applicant questions the reason for rejection, the Commission has no
records to reference to support its decisions. In addition, we were unable to assess for adequacy
the Commission's basis for rejecting applicants and communications to rejected applicants.

        Limited Advertising of Funding Availability

According to A Reference Manual for Commission Executive Directors and Members, section
3.2, "the Commission is expected to widely publicize the availability of funds." Mediums that
the Commission has used to advertise funding availability at different points during program
years 1995-96 through 1998-99 include radio, television, newspapers, magazines, newsletters,
and an internet website. However, the ability of the Commission to fully utilize all advertising
mediums each year and reach all interested parties has been limited due to its level of funding
resources. As a result, all interested parties may not be informed of funding availability, thereby
eliminating certain potential AmeriCorps programs from the selection process. For example, in
1998-99 program year, only six organizations applied for AmeriCorps funding, as compared with
16 in program year 1997-98 and 10 in program year 1996-97.

        Recommendations

We recommend the Commission focus on measures for improving the effectiveness of its
subgrantee selection process as follows:

    Develop an objective, standardized method of communicating the results of the
    Commission's evaluation of previously funded applicants. This method should ensure that
    the same type of information is communicated for each applicant. The Commission should
    also consider providing this information in writing to ensure consistency of content and
    availability of the information to the selection officials while they are making their funding
    determinations.
   Include in its subgrantee selection procedures an evaluation of the adequacy of the
   applicants' financial systems to ensure applicants have systems in place to properly account
   for grant funds and comply with related grant requirements.

   Develop and implement procedures that require selection officials to sign conflict of interest
   statements annually after discussion of related issues with Commission staff and review of
   written guidance provided.

   Develop and implement procedures to periodically backup its computerized files.

   Direct additional funding to its advertising efforts if additional funding becomes available to
   the Commission. In addition, the Commission should explore opportunities for free
   advertising that various media may provide to not-for-profit organizations.

Administering Grant Funds

As part of the grant administration process, "Commissions must evaluate whether subgrantees
comply with legal, reporting, financial management and grant requirements and ensure follow
through on issues of non-compliance" ( A Reference Manual for Commission Executive Directors
and Members, section 4.3).

The Commission has developed and implemented procedures that are intended to provide
reasonable assurance that grant funds received from the Corporation are properly administered.
Procedures are in place to withhold funding payments if subgrantees do not submit Financial
Status Reports (FSRs) timely; to manage cash draw downs and disbursements to subgrantees;
and to ascertain whether subgrantees have met their matching requirements. The Commission's
organizational structure appears adequate and personnel appear to have adequate skills and
experience to manage Corporation grant funds.

However, we identified the following areas for improvement related to the evaluation of
subgrantee compliance with reporting and grant requirements.

        Lack of Evidence of FSR Review. Including Matching Recalculation

Commission procedures require that subgrantee FSRs be reviewed upon receipt and that
matching requirements be recalculated at that time. However, prior to the third quarter of
program year 1998-99, no evidence existed to document that this review was performed. In
addition, procedures are not in place requiring Commission personnel to compare the FSRs to the
subgrantees' accounting systems or other supporting documentation during site visits to ensure
proper reporting of costs.

Without proper documented review of subgrantee FSRs, errors on the FSRs may exist and
remain undetected. Also, if subgrantees' FSRs are not agreed to the subgrantees' accounting
system, there is an increased risk that subgrantees are incorrectly reporting amounts on their
FSRs.

In the second half of program year 1998-99, the Commission developed procedures that require
the completion of an FSR worksheet, which documents the review procedures performed over
each FSR and the related matching recalculation, for each FSR received. We noted that thls
procedure was effectively implemented for the two subgrantees tested in program year 1998-99.

        Timeliness of Receipt of FSRs, Invoices and Progress Reports

The Commission does not routinely date-stamp FSRs, invoices and progress reports from
subgrantees as they are received. The receptionist at the Commission's front desk does not date-
stamp all mail received from the subgrantees. Also, on occasion, the Program Officer receives
documents by hand from the subgrantees during site visits where the date-stamp is not available
for use. Therefore, the Commission can not routinely verify if these documents are submitted
timely in compliance with the grant agreement. As a result, subgrantee FSRs may be submitted
late.

In program year 1999-2000, the Commission began using the Web Based Reporting System
which electronically records the date subgrantees submit their FSRs to the Commission. As a
result, no recommendation is required related to the timeliness of receipt of FSRs.

        Recommendations

We recommend the Commission focus on measures for improving the effectiveness of its grant
administration process as follows:

    Continue implementation of developed procedures to review subgrantee FSRs, recalculate
    matching requirements and formally document what review procedures were performed.

    Include in its site visit monitoring tool procedures to agree the subgrantees' FSRs to the
    subgrantees' accounting systems or other supporting documentation for accuracy and
    allowability.

Evaluating and Monitoring Subgrantees

As noted above, the Commission is responsible for evaluating whether subgrantees comply with
legal, reporting, financial management and grant requirements and ensuring follow through on
issues of noncompliance. As discussed in the following paragraphs, based on the limited
procedures performed, we believe the Commission does not have adequate controls in place to
evaluate and monitor subgrantees.

Prior to program year 1997-98, the Commission was understaffed and did not perform periodic
site visits to monitor its subgrantees' activities. During this timefiame, the Commission instead
held periodic staff meetings with the program directors to address programmatic concerns and
issues. Beginning in program year 1997-98, the Commission implemented procedures to perform
semi-annual site visits for each subgrantee using a standard monitoring tool. After each visit, the
Commission notifies subgrantees of the results of site visits, including strengths, challenges,
recommendations, and any necessary follow-up requirements. During our field work, we
identified two instances in program year 1997-98 in which a second site visit was not performed,
but no such instances were noted for program year 1998-99.

We also identified the following areas for improvement related to the evaluation and monitoring
of subgrantees:
        Review of Subgrantees ' Financial Systems, AmeriCorps Member Timesheets, and
        Expense Documentation during Site Visits

There is no evidence to indicate Commission personnel review the subgrantees' financial
systems, AmeriCorps Member timesheets, and expense documentation during site visits. As a
result, control weaknesses or instances of material noncompliance related to the subgrantees'
financial systems, the reporting of AmeriCorps Member hours, and the propriety of expense
documentation, of which the Commission is not aware, may exist.

        Review for Prohibited Activities

The Commission has no formal procedures in place to determine, on a periodic basis throughout
the grant period, if AmeriCorps Members are performing prohibited activities. The
Commission's site visit monitoring tool only requires monitors to document the existence of
subgrantee policies to prevent prohibited activities. However, the monitoring tool does not
include suggested procedures for visits to program sites or interviews of Amencorps Members
(on a spot check basis) to identify any potential prohibited activities.

Without specific procedures in place to determine if AmeriCorps Members are performing
prohibited activities, such prohibited activities could exist and remain undetected, causing
noncompliance. The inclusion of procedures, in the monitoring tool, to check for prohibited
activities as a part of the site visit, would provide reasonable assurance that they were performed
and documented consistently during each site visit.

        Review of Member Living Allowances and Hours Accumulation

The Commission does not have formal procedures in place to determine whether AmeriCorps
Members' living allowances are being paid according to established guidelines. Also, the
Commission does not speciJically review the nature of the hours accumulated by AmeriCorps
Members, to determine whether they represent activities which meet the educational, human,
environmental, and public safety needs specified in the Act which established the AmeriCorps
program. Instructions for the performance of such a review is not incorporated into the site
monitoring tool. As a result, instances of material noncompliance related to the AmeriCorps
program of which the Commission is not aware may exist and may not be detected or corrected.

        Review of OMB Circular A-133 Reports or Other Audit Reports from Subgrantees

OMB Circular A-133 Compliance Supplement, April 1999, Part 6 - Internal Control suggests
that review of and follow-up on subgrantees' audit reports is a key component of a program to
monitor subgrantees' compliance with federal grant requirements. However, as part of the
Commission's monitoring process, the Commission does not require its subgrantees to submit
OMB Circular A-133 or other audit reports. Therefore, the Commission does not routinely
review these reports to determine if auditors have identified control weaknesses or instances of
noncompliance related to the AmeriCorps program. As a result, control weaknesses or instances
of material noncompliance related to the AmeriCorps program of which the Commission is not
aware may exist and may not be detected or corrected.
       Written Policies and Procedures Related to Follow-up on Deficiencies Noted at
       Subgrantees

The Commission does not have written policies and procedures to ensure that subgrantees correct
deficiencies that are identified by the Commission. As a result, the Commission may not
properly or timely ensure the correction of noted subgrantee deficiencies. However, for the two
subgrantees tested in program year 1998-99, we noted that recommendations provided in the first
site visit report were addressed in the second site visit report.

        Schedule of Planned and Actual Site Visit Dates

The Commission does not maintain a schedule of planned and actual dates for site visits for each
program year. Without documentation of when site visits will occur and have occurred, the
Commission could overlook a particular site visit or not perform site visits timely.

        Recommendations

We recommend the Commission focus on measures for improving the effectiveness of its
evaluation and monitoring of subgrantees as follows:

    Develop and implement procedures to review the subgrantees' financial systems during site
    visits. Document the results of specific AmeriCorps Members' timesheets and expense
    documentation reviewed during site visits.

    Develop formal procedures, such as visits to randomly selected program sites and interview
    of AmeriCorps Members, to determine whether any prohibited activities are being
    performed. These procedures should be carried out during each subgrantee site visit and
    should be specifically incorporated into the Commission's monitoring tool.

    Establish specific sections in its site visit monitoring tool to determine and document
    whether (1) AmeriCorps Members' living allowances are being paid according to established
    guidelines and (2) hours accumulated by AmeriCorps Members represent activities permitted
    under the Act.

    Require its subgrantees to submit OMB Circular A-133 or other audit reports once the final
    reports are issued. The Commission should review these reports, determine if corrective
    action relevant to the AmeriCorps grant is needed, and develop procedures to ensure
    necessary corrective action occurs timely and adequately addresses the issues.

    Develop and implement written policies and procedures to ensure that adequate corrective
    actions are taken when deficiencies are noted by the Commission.

    Maintain a clear, concise schedule of site visits to be performed during each program year,
    and a record of when site visits are performed. A person other than the employee responsible
    for performing site visits should periodically review this schedule to ensure the schedule is
    complete and that site visits are being performed timely and according to Commission policy.
Providing Technical Assistance

The Commission has adequate controls in place to provide reasonable assurance that training and
technical assistance is made available and provided to subgrantees. Procedures are in place to
(1) identify training needs of subgrantees through periodic staff meetings with the program
directors and a needs assessment survey; (2) notify subgrantees of training programs; and (3)
provide needed training to subgrantees. Although funding is limited to address the training needs
of Commission staff, they attend the training sessions provided to subgrantees. We identified no
significant areas for improvement within this process.



This report is intended solely for the information and use of the Office of the Inspector General,
the management of the Corporation for National and Community Service, the New Hampshire
Commission on National and Community Service, and the United States Congress and is not
intended to be and should not be used by anyone other than these specified parties.
                                 Commission Funding                           Appendix A

The table below and the flowcharts on the following pages depict the Commission's funding over
the past three program years. We were unable to agree the funding amounts to the Commission's
FSRs for (a) 1998-99 because the final FSR for the program year had not been completed at the
time of field work and (b) previous program years because those FSRs had been prepared on a
cumulative, not program year, basis.


         Funding Source and Tvpe

         CNS Formula Grant Funds

         CNS Competitive Grant Funds

         CNS Promise Fellows Funds

         CNS Educational Only Awards

         CNS PDAT Funds

         CNS Administrative Funds

         CNS Carryover Funds

         State Matching Funds

           Total Funding

*   Estimated
                          Commission Funding                               Appendix A




                    Corporation for National Service
                             Funding to the
                      New Hampshire Commission
                   on National and Community Service
                                 1996-97
        I                  I            I           I              I
   Formula            Competitive   Learn and   PDAT           All Other
   Funds *             Funds *        Serve     Funds           Funds
                                     Funds
   $369,452            $769,045        $0       $55,130        $125,000




      Total Corporation Funds Available to the Commission
                          $1,3 18,627




                      Funds Awarded to Subgrantees
                              $1,138,497




         I        Formula                         Competitive

         II     Subgrantees
                  $369,452
              # of subgrantees
                                                  Subgrantees
                                                    $769,045
                                                # of subgrantees
                                                        2




* Includes carryover amounts
                            Commission Funding                                       Appendix A




                   Corporation for National Service
                           Funding to the
                    New Hampshire Commission
                 on National and Community Service
                               1997-98
          I                I                I                              I
     Formula           Competitive      Learn and        PDAT          All Other
      Funds              Funds            Serve          Funds          Funds
                                         Funds
    $45 1,877          $1,186,009          $0           $104,000        $130,482




       Total Corporation Funds Available to the Commission
                           $1,872,368




                       Funds Awarded to Subgrantees
                               $1,663,156




        Formula                        Competitive                   Educational
      Subgrantees                      Subgrantees                   Award Only
        $45 1,877                       $1,186,009                   Subgrantees
                                                                       $25,270

1
    # of subgrantees                 # of subgrantees
                                                                   # of subgrantee
                            Commission Funding                                     Appendix A




                     Corporation for National Service
                              Funding to the
                       New Hampshire Commission
                    on National and Community Service
                                  1998-99
I

          I                I                I             I               I
     Formula           Competitive      Learn and                     All Other
     Funds*              Funds*           Serve         Funds          Funds
                                          Funds
     $336,490           $917,344           $0           $92,855




         v                 7                v             v              *
       Total Corporation Funds Available to the Commission
                           $1,613,392




                       Funds Awarded to Subgrantees
                               $1,258,834




        Formula                       Competitive                 Educational
      Subgrantees                     Subgrantees                 Award Only
        $336,490                                                  Subgrantees
    # of subgrantees                 # of subgrantees                $5,000
              2                                                 # of subgrantees
       # of sites                                                       1
              23




* Includes carryover amounts.
                          Detailed Engagement Objectives
                                 and Methodology                                  Appendix B

Internal Controls

Our objective was to make a preliminary assessment of the adequacy of the Commission's
financial systems and documentation maintained by the Commission to provide reasonable
assurance that transactions are properly recorded and accounted for to: (1) permit the preparation
of reliable financial statements and Federal reports; (2) maintain accountability over assets; and
(3) demonstrate compliance with laws, regulations, and other compliance requirements.

In order to achieve the above objective, we identified the compliance requirements with a direct
and material effect on the Commission's AmeriCorps grant program, as follows: activities
allowed or unallowed and allowable costs; cash management; eligibility; matching; period of
availability of Corporation funds; and reporting by the Commission to the Corporation. We then
interviewed key Commission personnel to assess the Commission's controls surrounding these
requirements.

Selecting Subgrantees

Our objectives were to make a preliminary assessment:

    of the adequacy of the systems and controls utilized by the Commission to select national
    service subgrantees to be included in an application to the Corporation;

    as to whether the Commission evaluated the adequacy of potential subgrantee financial
    systems and controls in place to administer a Federal grant program prior to making the
    award to the subgrantees; and

    as to whether Commission involvement in the application process involved any actual or
    apparent conflict of interest.

In order to achieve the above objectives, we interviewed key Commission management and
documented procedures performed by the Commission during the pre-award financial and
programmatic risk assessment of potential subgrantees. We also reviewed documentation to
determine if conflict of interest forms for each subgrantee applicant tested were signed by
selection officials annually and maintained by the Commission.

Administering the Grant Funds

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission to oversee and monitor the performance and progress of funded subgrantees;

    make a preliminary assessment as to whether the Commission's organizational structure and
    staffing level and skill mix are conducive to effective grant administration and whether the
    Commission has a properly constituted membership;
                          Detailed Engagement Objectives
                                 and Methodology                                 Appendix B

   make a preliminary assessment as to whether the Commission provided adequate guidance to
   subgrantees related to maintenance of financial systems, records, supporting documentation.
   and reporting of subgrantee activity;

   make a preliminary assessment of the adequacy of financial systems and documentation
   maintained by the Commission to support oversight of subgrantees and required reporting to
   the Corporation (including Financial Status Reports, enrollment forms and exit forms); and

   determine whether the Commission has procedures in place to verify the accuracy and
   timeliness of reports submitted by the subgrantees.

In order to achieve the above objectives, we reviewed Financial Status Reports submitted by
subgrantees, as well as Financial Status Reports submitted by the Commission to the
Corporation, to preliminarily assess the accuracy of submitted Financial Status Reports. We also
determined whether the Commission had implemented the Web Based Reporting System
(WBRS).

Evaluating and Monitoring Grants

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission, in conjunction with the Corporation, to implement a comprehensive, non-
    duplicative evaluation and monitoring process for their subgrantees;

    determine whether the Commission has an established subgrantee site visit program in place
    and make a preliminary assessment of the effectiveness of its design in achieving monitoring
    objectives;

    make a preliminary assessment of the adequacy of the Commission's procedures used to
    assess subgrantee compliance with Corporation regulations (e.g., those governing eligibility
    of Members, service hour reporting, prohibited activities, payment of living allowances to
    Members and allowability of costs incurred and claimed under the grants by subgrantees
    (including reported match));

    make a preliminary assessment of the adequacy of the Commission's procedures for
    obtaining, reviewing and following up on findings included in the subgrantee OMB Circular
    A-1 33 audit reports, where applicable;

    determine whether program goals are established and results are reported and compared to
    these goals; and

    make a preliminary assessment of the adequacy of the procedures in place to evaluate
    whether subgrantees are achieving their intended purpose.
                           Detailed Engagement Objectives
                                  and Methodology                                 Appendix B


In order to achieve the above objectives, we documented the procedures performed by the
Commission to evaluate and monitor individual subgrantees. In addition, we judgrnentally
selected subgrantees and obtained the Commission's documentation for site visits. We reviewed
the documentation to preliminarily assess the adequacy of the procedures performed by the
Commission to assess financial and programmatic compliance and related controls at the sites.
We also determined whether the Commission received and reviewed OMB Circular A-1 33 audit
reports from subgrantees.

Providing Technical Assistance

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission to provide technical assistance to subgrantees and other entities in planning
    programs, applying for funds, and implementing and operating programs;

    determine whether a process is in place to identify training and technical assistance needs;
    and

    determine whether training and technical assistance is provided to identified subgrantees.

In order to achieve the above objectives, we documented the procedures performed by the
Commission to identify and satisfy training needs for the subgrantees and Commission
employees. We also obtained a summary of all training costs incurred during the current year to
ensure they properly related to training activities that were made available to all subgrantees.
                                                                                                        Appendix C
                                       NH Commission for National & Community Service
                                              AmeriCorps: Getting Things Done In New Hampshire




    C'o-c hall3
    Mark Oswald
    Orwold Assoc!otes
                                           January 11,2000
    Sue Slahl
    Commun~trRepreien'otve




                                           Ms. Luke S. Jordan
                                           Office of Inspector General
    Peter Bender                           1201 New York Avenue, NW
    Pegc;d Founaot on
                                           Washington, DC 20525
    KatPorine eogle Shields
    P r ~ , o a Natioval
                n        Bo~k
    El~zabelhCampbell
    itale t ~ p l o r e e :Aisoc atton
                                           Dear Ms. Jordan,
    Honorable Susan B Carbon
    ~ l v r ~ c uFaviy
    Sue Connor
                 th    1i.lsion
                                           Enclosed please find the New Hampshire Commission for National and
    ;outherr NU Seri c e i l R i J P       Community Service's response to the recent pre-audit preformed in October
    Andy C o p p ~ n g e r
    ;lro'ford P ~ b l l c5chool
                                           1999. We appreciate the opportunity to send this response and the learning
    Dione Freedman                         experience that your pre-audit afforded us. If you have any questions
    Un,vet:ily o f %ew Harnpsh,re
    Ken Freltar
                                           regarding the enclosed, please do not hesitate to call us.
    l m b e r ~ a n oCompany
    Vtrglnla lrwln
    r i r Deporlrne~l~f Educolion
                                           Sincerely,
    Debra Mlller
    C 1 zeni Bank
    Jamar Mlll~ken
    , a r e $ N *,iI k e n 4;iacalei       Alexis Walker
    Dlck Shannon
    :lH7 ~ ' ,: ~':hoi.ller
                    c                      Executive Director


                                           Enclosure




    Provtdcon Nationol Bonk
    Tyco lnternal~onal
    Timberland Ca




j         64 Old Suncook Road               Concord, NH 03301   Fax: 603-229-3408   +   Telephone: 603-229-3406   TDD: 603-229-3417

i                                                                                                                          €3
                                                                        Appendix C
N H Commission for National & Community Service
Response to Findings and Recommendations


Selecting Subgrantees
Although we are in concurrence with your thoughts and findings, there are some points of
clarification that need to be made.

It was indicated that a panel of three commissioners and one community member
evaluate the applications. This is considered a minimum number of appropriate
representation. For example; the 2000 - 2001 grant application had four commissioners
and two members of the community as part of the evaluation team.
The "verbal communication" from staff to the evaluation team can vary from each
applicant (regarding previously hnded programs) depending on what is asked of the staff
from the evaluation team. However, staffwill use information from site visits that are
documented in site monitoring tools to provide this information. Staff is careful not to
use undocumented information in the decision making process. A format, or policy of
what information is to be provided and from what source is recognized as an important
piece to this process and will be created.

Lack of Formal Conflict of Interest Statements
The NH Commission has had conflict of interest forms, information and processes in
place to ensure commissioners are aware and understand COI. COI is part of the
commissioner's handbook and is discussed before events where COI may come into play;
such as evaluating grant applications. We do recognize that signed forms have not been
kept up to date and a format or policy on COI for grant application evaluation needs to be
created in print. The NH Commission has created an updated version of the COI and
Voting policy for all commissioners to sign and a COI policy for community members on
evaluation teams to sign. COI wadis part of training for application evaluation teams,
however this process has not been documented in the past.

Missing Documentation related to Application Rejections
The commission will keep hard copies of any correspondence regarding the application
process in appropriate files.

Limited Advertising of Funding Availability
You identify mediums the commission has used as radio, television, newspapers,
magazines, newsletters, and an internet website. We have also used direct mailing,
posters, job fairs and direct contact as ways to advertise for funding and recruitment. We
are unclear as to why the mediums you identify are considered "limited." The
commission would appreciate any suggestions on other mediums that could be used in
order to be considered "not limited."

Identified as a cause and effect relationship are the number of applications received in the
1998-1999program year. The commission does not agree that the number of
applications received is directly related to the level of advertising for funding availability.
                                                                      Appendix C
We believe there are many other factors at stake, such as; employment rate, political
climate, recognition of funding source, realization of the complexity of the grants etc.
The lack of applications may be a concern for more effective exposure. This could be
identified as a marketing issue, but not necessarily a lack of advertising for NOFA's.


Administering Grant Funds

Il'imeIiincss of Receipt of FSRs, Invoices and Progress Repom
NH Job Training Council, as the fiscal agent, hip performed the basic calculations for
FSRs. If there is an inconsistency with an FSR, the NHJTC will notify this ofice, the
FSR will be sent back for corrections. The NH Commission has created a fiscal manual
which has forms that will identify match and various other fiscal measures for each
program.


Evaluating and Monitoring Subgrantees

Review of Subgrantees'financial systems, AmeriCorps member timesheets, and
expense Documentation during site visits
Concerns regarding controls are now done through fiscal site visits. Due to the amount of
staff available in the past and the amount of time to provide a site visit, only
programmatic site visits were being conducted. Since the fiscal manual has been put in
place, fiscal site visits have been conducted and documentation of those visits arelwill be
on file.

Regarding the review of member timesheets; timesheets are checked during
programmatic site visits. What is looked for are appropriate signatures and tracking of
trainingleducation versus service hours.

Review of Prohibited Activities
The commission is not sure to what level and degree site visits should have to "hunt" for
"potential" prohibited activities. Part of each site visit is to meet with members and host
site staff. It is impossible to meet with all members and host site staff By meeting with
members and host site staffwe expect to develop a better understanding of the activities
the member is performing and whether or not they are appropriate. Members and staff
receive training twice at the beginning of each year regarding prohibited activities and are
reminded throughout the year about prohibited activities. Prohibited activities are found
in the federal register, the program directors handbook, members handbooks and
occassional memos. The commission holds program staff meetings every other month,
we coordinate the Intercorps Council and conduct statewide events that provide us an
opportunity to meet with staff, members and others in order to learn more about their
service. We are fully aware of what constitutes a "red flag" and will deal appropriately if
one occurs. It would be important to know what documentation or staff activity would
satisfy this issue?
                                                                      Appendix C

Rm'tw of Member Living Allowance and Hour Accumulation
The commission is not clear on what is meant by "authorized" activities. We are clear on
displacement issues, prohibited activities and what duties should be done in the "spirit of
AmeriCorps." If these are what you considered "authorized" activities, the commission's
response would be the same as the "prohibited activities" response. And like the
prohibited activities response would like to know what kind of activities from
commission staff and what documentation would satisfy this concern.

Review of OMB Circular A-133 or Other Audit Reports from Subgrantees
The NH Commission has on file A- 133 reports from programs that have received
finding. We have not received A-133's fiom a finded program every year they have
received finding. As established in our yearly fiscal review process A-133's will be
received and reviewed. For the 2000 - 2001 program applications, an A-133 will be
requested prior to submission to the CNS.

Schedule of Planned and Actual Site Visit Dates
We can provide dates site visits were conducted. We are not clear on how long in
advance a site visit should be scheduled to meet this requirement. Obviously site visits
must be planned and the commission identifies when during the program year they
should be conducted. Would a yearly timeline of anticipated and actual site visits satisfy
this issue?

Recommendations
Bullet #2-      Should these procedures be more than site visits, host site visits, member
visits as described previously?
Bullet #3-      What is the difference between "established guidelines" and "authorized
activities?" Refer to "Review of Member Living Allowance and Hour Accumulation."
MEMORANDUM

TO:            Luise Jordan                                      AmeriCorps National Semce   C 0R P0 RAT I 0N
                                                                                             FOR NATIONAL
FROM:

SUBJECT:       Response to thewevised Draft Audit Report 00-19, Pre-Audit Survey of the New
               Hampshire Commission for National and Community Service

DATE:          February 4,2000

We have reviewed your revised draft audit report that includes a recommendation to the
Corporation. We are providing the following response to that recommendation. The Inspector
General recommended:

        "Additionally, we (the Inspector General) recommend that the Corporation follow up
        with the Commission to determine that appropriate corrective actions are put into place to
        address the conditions reported herein, and that the Corporation consider these conditions
        in its oversight and monitoring of the New Hampshire Commission on National and
        Community Service."

Some of the conditions cited in the "results in brief' section of the report include concerns
related to the selection of subgrantees, FSR timeliness and review, and controls to evaluate and
monitor subgrantees.

Given the Corporation's limited program administration resources, we developed a plan to assess
State Commission administration standards. Over a three year period, we will be reviewing each
of the State Commissions. The draft administration standards were published in the Federal
Register for comment on December 22, 1999. Based on the final set of standards, we plan to
review 12 commissions this year. When scheduling these reviews, we will consider the
conditions cited in any OIG pre-audit surveys that have been issued as we finalize our plans. As
part of our review, we will determine whether State Commissions have put appropriate
corrective actions in place for conditions noted in any pre-audit survey that your office has
issued.

In addition to these scheduled reviews, we will also request that Commissions provide semi-
annual reports on their actions to correct conditions cited in the OIG pre-audit surveys.




                                                                                              1M1 New Yor* Avenue. NW
                                                                                              Washington. DC 20525
                                                                                              Telephone 20240&5000



                                                                                              Guiq Th&a Done.
                                                                                              AmeriCorps. National Service
                                                                                              Lea and Serve America
                                                                                              National Senlor Service Corps
                                                                           Appendix D



On a related note, the appropriate action officials for the State Commission pre-audit surveys are
Bruce Cline, the Director of the Office of Grants Management, and myself. If your office would
address correspondence on pre-audit surveys to these parties, with copies to Tony Musick,
Wendy Zenker, and Peg Rosenberry, it would be appreciated.

cc:    Wendy Zenker
       Gary Kowalczyk
       Tony Musick
       Bruce Cline
       Peg Rosenbeny
